<html>
<title> - BEYOND BACCALAUREATE: GRADUATE PROGRAMS IN THE HIGHER EDUCATION ACT</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
   BEYOND BACCALAUREATE: GRADUATE PROGRAMS IN THE HIGHER EDUCATION ACT

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON SELECT EDUCATION

                                 of the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                           September 9, 2003

                               __________

                           Serial No. 108-30

                               __________

  Printed for the use of the Committee on Education and the Workforce



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov

                                 _____

                   U.S. GOVERNMENT PRINTING OFFICE
                          WASHINGTON : 2004
90-135 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001



                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN A. BOEHNER, Ohio, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California
    Chairman                         Dale E. Kildee, Michigan
Cass Ballenger, North Carolina       Major R. Owens, New York
Peter Hoekstra, Michigan             Donald M. Payne, New Jersey
Howard P. ``Buck'' McKeon,           Robert E. Andrews, New Jersey
    California                       Lynn C. Woolsey, California
Michael N. Castle, Delaware          Ruben Hinojosa, Texas
Sam Johnson, Texas                   Carolyn McCarthy, New York
James C. Greenwood, Pennsylvania     John F. Tierney, Massachusetts
Charlie Norwood, Georgia             Ron Kind, Wisconsin
Fred Upton, Michigan                 Dennis J. Kucinich, Ohio
Vernon J. Ehlers, Michigan           David Wu, Oregon
Jim DeMint, South Carolina           Rush D. Holt, New Jersey
Johnny Isakson, Georgia              Susan A. Davis, California
Judy Biggert, Illinois               Betty McCollum, Minnesota
Todd Russell Platts, Pennsylvania    Danny K. Davis, Illinois
Patrick J. Tiberi, Ohio              Ed Case, Hawaii
Ric Keller, Florida                  Raul M. Grijalva, Arizona
Tom Osborne, Nebraska                Denise L. Majette, Georgia
Joe Wilson, South Carolina           Chris Van Hollen, Maryland
Tom Cole, Oklahoma                   Tim Ryan, Ohio
Jon C. Porter, Nevada                Timothy H. Bishop, New York
John Kline, Minnesota
John R. Carter, Texas
Marilyn N. Musgrave, Colorado
Marsha Blackburn, Tennessee
Phil Gingrey, Georgia
Max Burns, Georgia

                    Paula Nowakowski, Chief of Staff
                 John Lawrence, Minority Staff Director
                                 ------                                

                    SUBCOMMITTEE ON SELECT EDUCATION

                   PETER HOEKSTRA, Michigan, Chairman

John C. Porter, Nevada, Vice         Ruben Hinojosa, Texas
    Chairman                         Susan A. Davis, California
James C. Greenwood, Pennsylvania     Danny K. Davis, Illinois
Charlie Norwood, Georgia             Tim Ryan, Ohio
Phil Gingrey, Georgia                George Miller, California, ex 
Max Burns, Georgia                       officio
John A. Boehner, Ohio, ex officio
                                 ------                                



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on September 9, 2003................................     1

Statement of Members:
    Hinojosa, Hon. Ruben, a Representative in Congress from the 
      State of Texas.............................................     4
    Porter, Hon Jon C., a Representative in Congress from the 
      State of Nevada............................................     2
        Prepared statement of....................................     3

Statement of Witnesses:
    Allen, William Barclay, Professor of Political Philosophy and 
      Director, Program in Public Policy and Administration, 
      Michigan State University..................................    16
        Prepared statement of....................................    17
    Cardenas, Blandina, Dean, College of Education and Human 
      Development, University of Texas at San Antonio............    19
        Prepared statement of....................................    21
    Hall, Daniel, Vice President for External Affairs, University 
      of Louisville and Chairman, Government Relations Committee, 
      Council on Legal Education Opportunity.....................    14
        Prepared statement of....................................    15
        Letter submitted for the record..........................    31
    Lewis, Earl, Dean of The Rackham Graduate School, Vice 
      Provost for Academic Affairs for Graduate Studies, and 
      Professor of History, University of Michigan...............     7
        Prepared statement of....................................     9

Additional materials supplied:
    Archer, Dennis W., President, American Bar Association, 
      Letter submitted for the record............................    38
    Pompa, Delia, Executive Director, and Patricia Loera, 
      Legislative Director, National Association for Bilingual 
      Educators, Statement submitted for the record..............    40


  BEYOND BACCALAUREATE: GRADUATE PROGRAMS IN THE HIGHER EDUCATION ACT

                              ----------                              


                       Tuesday, September 9, 2003

                     U.S. House of Representatives

                    Subcommittee on Select Education

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 2:05 p.m., in 
room 2175, Rayburn House Office Building, Hon. Jon Porter [Vice 
Chairman of the Subcommittee] presiding.
    Present: Representatives Porter, Greenwood, Gingrey, 
Hinojosa, and Davis of California.
    Also present: Representative Owens.
    Staff present: Pam Davidson, Professional Staff Member; 
Alexa Marrero, Press Secretary; Krisann Pearce, Deputy Director 
of Education and Human Resources Policy; Alison Ream, 
Professional Staff Member; Deborah L. Samantar, Committee 
Clerk/Intern Coordinator; Kathleen Smith, Professional Staff 
Member; Jo-Marie St. Martin, General Counsel; Liz Wheel, 
Legislative Assistant; Catharine Meyer, Legislative Assistant; 
Ellynne Bannon, Minority Legislative Associate/Education; 
Ricardo Martinez, Minority Legislative Associate, Education; 
and Joe Novotny, Minority Legislative Assistant/Education.
    Vice Chairman Porter. The Subcommittee on Select Education 
of the Committee on Education and the Workforce will come to 
order.
    We're holding this hearing today to hear testimony on 
``Beyond Baccalaureate: Graduate Programs in the Higher 
Education Act.''
    Under Committee rule 12(b), opening statements are limited 
to the Chairman and the ranking minority member of the 
Committee. Therefore, if other members have statements, they 
will be included in the hearing record.
    With that, I ask unanimous consent for the hearing record 
to remain open for 14 days to allow member statements and other 
extraneous material referenced during the hearing to be 
submitted in the official hearing record.
    Without objection, so ordered.

 STATEMENT OF HON. JON C. PORTER, A REPRESENTATIVE IN CONGRESS 
                    FORM THE STATE OF NEVADA

    Vice Chairman Porter. Good afternoon. I'm Representative 
Jon Porter and a member of the Subcommittee on Select 
Education. Unfortunately, our Chairman, Mr. Hoekstra, had an 
obligation to travel to Iraq with another Committee and is 
unable to join us today.
    I thank you for joining us for our hearing. It's entitled, 
``Beyond Baccalaureate: Graduate Programs in the Higher 
Education Act.''
    We appreciate your willingness to share your insights and 
expertise about the various graduate programs authorized under 
Title VII of the Higher Education Act and offer suggestions for 
the reauthorization of this title today.
    This hearing is another in our continuing series focusing 
on the reauthorization of the Higher Education Act. The 
reauthorization of the Higher Education Act offers Congress an 
opportunity to enact needed reforms to the programs covered 
under the Act, with the goal of building upon those that are 
working well and improving those in need of update.
    The reauthorization process is guided by four principles: 
affordability, accessibility, consumer empowerment, and 
fairness. Each of these principles will help us in meeting our 
goals to expand post-secondary education opportunities for 
needy students, both undergraduate and graduate.
    The principles will also help to realign programs to place 
a priority on serving students who seek to enroll in college 
and have the dream of pursuing graduate studies. Through this 
reauthorization, we will be working diligently to ensure that 
the Federal contribution to higher education is expanding 
access to students at all levels.
    This Subcommittee has jurisdiction over Title VII in the 
Higher Education Act. We are here today to learn more about the 
programs that are authorized and funded under Title VII, which 
are some of the oldest programs of Federal support to higher 
education in the country.
    With the passage of the Higher Education Act in 1965, 
Congress made great strides in highlighting the importance of 
post-secondary education.
    For the first time, many were afforded the opportunity to 
pursue their dreams of earning a college degree. Countless 
numbers of students have taken advantage of these programs, and 
as a result, our nation has enjoyed the benefits of a more 
educated society.
    As we enter the 21st Century, the need for advanced 
education is becoming increasingly more crucial to successfully 
maintaining our place in the technologically-advanced economy. 
Now more than ever, our citizens are obtaining graduate degrees 
in order to gain more expertise in their field of study.
    Currently, nearly 2 million students attend one of over 
1,800 graduate school programs in our country, and this number 
is on the rise. According to the Council of Graduate Schools, 
total graduate enrollment in the United States rose by 3 
percent between 2000 and 2001 and is expected to rise in the 
coming years.
    Graduate education produces immeasurable benefits for our 
nation. Not only do these programs enrich our citizenry, but 
they also nurture discovery and innovation that will someday 
lead to medical and technological advancements.
    Graduate programs also train the next generation of 
researchers, engineers, doctors, lawyers, poets, and 
professors. These individuals will be vitally important in 
preparing the United States to meet the challenges of the 
future in our global economy.
    Title VII of the Higher Education Act authorizes three 
graduate fellowship programs:
    The Graduate Assistance in Areas of National Need; the 
Jacob K. Javits Fellowship Program; and the Thurgood Marshall 
Legal Educational Opportunity Program.
    Collectively, they encourage students to advance their 
knowledge in scientific and technical fields, the arts and 
humanities, and legal studies, by providing financial 
assistance as well as support services to those displaying 
academic excellence in their field of study. Each year, 
Congress appropriates nearly $45 million to assist these 
students in pursuing their goals.
    I'm expecting some of our witnesses here today will also 
discuss the need to highlight specific disciplines that need to 
be considered under the Title VII programs. I will be 
interested to hear how we can address these issues under the 
current programs.
    As we move forward with the reauthorization of the Higher 
Education Act, HEA, we must continue to build on the success of 
those valuable programs that prepare the next generation of 
scholars. Graduate education is essential to maintaining our 
place in the world economy.
    I look forward to hearing from our distinguished witnesses 
and any recommendations they may have to improve and enhance 
these programs, as well as any recommendations that address 
issues for graduate education that are not currently met 
through Title VII.
    With that, I yield to my colleague for any opening 
statements he may have.
    The statement of Mr. Porter follows:

  Statement of Hon. Jon Porter, a Representative in Congress from the 
                            State of Nevada

    Good Afternoon. I am Representative Jon Porter and a member of the 
Subcommittee on Select Education. Unfortunately, Chairman Hoekstra had 
an obligation to travel to Iraq with another committee and is unable to 
join us today. Thank you for joining us for our hearing today entitled, 
``Beyond Baccalaureate: Graduate Programs in the Higher Education 
Act.'' We appreciate your willingness to share your insights and 
expertise about the various graduate programs authorized under Title 
VII of the Higher Education Act and offer suggestions for the 
reauthorization of this title. This hearing is another in our 
continuing series focusing on the reauthorization of the Higher 
Education Act. The reauthorization of the Higher Education Act offers 
Congress an opportunity to enact needed reforms to the programs covered 
under the Act, with the goal of building upon those that are working 
well, and improving those in need of update. The reauthorization 
process is guided by four principles--affordability, accessibility, 
consumer empowerment, and fairness. Each of these principles will help 
us in meeting our goals to expand postsecondary education opportunities 
for needy students, both undergraduate and graduate. The principles 
will also help to realign programs to place a priority on serving 
students who seek to enroll in college and have the dream of pursuing 
graduate studies. Through this reauthorization, we will be working 
diligently to ensure that the federal contribution to higher education 
is expanding access to students at all levels.
    This subcommittee has jurisdiction over Title VII in the Higher 
Education Act and as such, we are here today to learn more about the 
programs that are authorized and funded under Title VII, which are some 
of the oldest programs of federal support to higher education. With the 
passage of the Higher Education Act in 1965, Congress made great 
strides in highlighting the importance of postsecondary education. For 
the first time, many were afforded the opportunity to pursue their 
dreams of earning a college degree. Countless numbers of students have 
taken advantage of these programs and as a result our nation has 
enjoyed the benefits of a more educated society.
    As we enter the 21st Century, the need for advanced education is 
becoming increasingly more crucial to successfully maintaining our 
place in the technologically-advanced economy. Now, more than ever, our 
citizens are obtaining graduate degrees in order to gain more expertise 
in their field of study. Currently, nearly 2 million students attend 
one of over 1,800 graduate school programs in our country. And, this 
number is on the rise. According to the Council of Graduate Schools, 
total graduate enrollment in the United States rose by 3 percent 
between 2000 and 2001 and is expected to rise in the coming years.
    Graduate education produces immeasurable benefits for our nation. 
Not only do these programs enrich our citizenry, but they also nurture 
discovery and innovation that will someday lead to medical and 
technological advancements. Graduate programs also train the next 
generation of researchers, engineers, doctors, lawyers, poets, and 
professors. These individuals will be vitally important in preparing 
the United States to meet the challenges of the future.
    Title VII of the Higher Education Act authorizes three graduate 
fellowship programs: The Graduate Assistance in Areas of National Need 
(GAANN) program, the Jacob K. Javits Fellowship program, and the 
Thurgood Marshall Legal Educational Opportunity program. Collectively, 
they encourage students to advance their knowledge in scientific and 
technical fields, the arts and humanities, and legal studies by 
providing financial assistance as well as support services to those 
displaying academic excellence in their field of study. Each year, 
Congress appropriates nearly $45 million to assist these students in 
pursuing their goals.
    I am expecting some of our witnesses here today will also discuss 
the need to highlight specific disciplines that need to be considered 
under the Title VII programs. I will be interested to hear how we can 
address these issues under the current programs.
    As we move forward with the reauthorization of the Higher Education 
Act (HEA), we must continue to build on the success of these valuable 
programs that prepare the next generation of scholars. Graduate 
education is essential to maintaining our place in the world economy. I 
look forward to hearing from our distinguished witnesses and any 
recommendations they may have to improve and enhance these programs, as 
well as address issues for graduate education that are not currently 
met through Title VII.
    With that, I would yield to my colleague, Mr. Hinojosa, for any 
opening statement that he might have.
                                 ______
                                 

STATEMENT OF HON. RUBEN HINOJOSA, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. Hinojosa. Thank you very much, Chairman Porter. I would 
like to thank you for holding this hearing and convening such a 
distinguished panel of witnesses.
    Although the Title VII programs make up a small part, 
financially, of the Higher Education Act, they are very 
critical to expanding access and fostering innovation in higher 
education.
    The programs under Title VII provide graduate fellowships 
in areas of national need. They open the doors to law school 
for under-represented groups. They assist institutions of 
higher education in providing the necessary supports to ensure 
that students with disabilities, who are entering our colleges 
in record numbers, as the Chairman stated earlier, are 
successful.
    Finally, Title VII represents the Federal commitment to 
innovation in higher education through the Fund for Improvement 
of Post-secondary Education.
    In a knowledge economy, advanced training is essential. 
Sadly, in the Hispanic community, we are woefully behind in 
attaining advanced degrees. In fact, recent Census figures show 
that Hispanics have the lowest rate of completing advanced 
degrees--less than 4 percent.
    As the Hispanic community continues to grow, it is 
essential that we reverse this trend and expand opportunities 
for graduate education in the Hispanic community. I hope that 
we will seize the opportunity of this reauthorization bill to 
accomplish that goal.
    I would also like to mention that we are making great 
strides in providing access to higher education for students 
with disabilities. Our focus on academic achievement for all 
students, including students with disabilities, means that our 
colleges must get ready fast to address those needs.
    The demonstration projects to ensure students with 
disabilities receive a quality education that we authorized in 
1998 were a good first step.
    In my congressional district, the University of Texas Pan 
American has an excellent project which has made a real 
difference for students with disabilities in the Rio Grande 
Valley of South Texas.
    Finally, I hope that our witnesses will also discuss how 
Title VII programs can help address an area of acute need, the 
shortage of faculty in our colleges of education, particularly 
in the fields of special education, bilingual education, and 
English as a second language.
    Quality teaching and research-based methods of instruction 
underpin the reforms of the No Child Left Behind Act. We will 
not be able to train highly qualified teachers, nor produce the 
scientifically based research necessary to improve instruction 
without well-prepared faculty at our colleges and universities.
    I would like to thank the witnesses for being here today, 
and I am eager to hear your testimony. Thank you, Mr. Chairman.
    Vice Chairman Porter. Thank you, Mr. Hinojosa.
    We have a distinguished panel of witnesses before us, and I 
thank them for coming today. At this time, I'd like to 
introduce our witnesses.
    We have Dean Earl Lewis. Dr. Lewis serves as the vice 
provost for graduate studies and also as the dean of the Horace 
H. Rackham Graduate School at the University of Michigan. In 
this capacity, he is responsible for emphasizing 
interdisciplinary studies, diversity of program offerings, and 
quality of teaching and research.
    Prior to his current position, Dr. Lewis taught in both the 
History Department and the Center for African and African-
American Studies. He is immediate past chair of the Board of 
Directors of the Council of Graduate Schools, and is the 
national chair with the Woodrow Wilson Responsive Ph.D. 
Project.
    Dr. Lewis, welcome. We appreciate you being here, very 
much.
    Mr. Daniel Hall. Mr. Hall has recently been appointed as 
the vice president for external affairs at the University of 
Louisville, where he also served as vice president for 
university relations since 1998. Previously, he was chief of 
staff to former U.S. Congressman Romano L. Mazzoli.
    Mr. Hall currently serves on the Council on Governmental 
Affairs for the National Association of State Universities and 
Land Grant Colleges, and on the Council of Legal Education 
Opportunities board of directors.
    Mr. Hall, welcome. The Subcommittee appreciates you being 
here.
    Dr. William B. Allen. Dr. Allen is currently a professor of 
political science at Michigan State University. He has served 
as a member of the National Council for the Humanities and also 
as the chair of the United States Commission on Civil Rights.
    Dr. Allen has garnered national recognition, having been 
named a Kellogg National Fellow and also to the 1997 Templeton 
Honor Roll.
    He has recently added to the scholarship on higher 
education by publishing ``Habits of the Mind: Fostering Access 
and Excellence in Higher Education.''
    Doctor, welcome. We appreciate you being here.
    At this time, I yield to Mr. Hinojosa to introduce the 
final witnesses, and I recognize him for that purpose.
    Mr. Hinojosa. Thank you, Mr. Chairman and members of the 
Subcommittee.
    It is my pleasure to introduce a distinguished educator who 
I'm proud to count as a colleague and a wonderful friend. Dr. 
Blandina ``Bambi'' Cardenas has devoted her entire career to 
opening the doors of education to all, from pre-school through 
graduate school. Dr. Cardenas is currently professor of 
educational leadership and the dean of the College of Education 
and Human Development at the University of Texas at San 
Antonio.
    Some of her previous positions include director of the 
Office of Minorities in Higher Education at the American 
Council on Education. She was vice president for institutional 
advancement at Our Lady of the Lake University. She was 
director of training at the Intercultural Development Research 
Association, and also the commissioner of the administration 
for Children, Youth, and Families in the Department of Health, 
Education and Welfare, where she led the nation's Head Start 
program. Additionally, she served two 6-year terms on the 
United States Commission on Civil Rights.
    Formerly a teacher at both pre-school and high school 
levels, Dr. Cardenas also served as the director of development 
of innovative programs at the Edgewood Independent School 
District, where she designed an extensive array of programs 
that became national models.
    As early as 1969, Dr. Cardenas pioneered the implementation 
of bilingual infant stimulation programs--she is the author of 
Bilingual Early Childhood Education for Severely Handicapped 
Children--programs to credential teachers' aides, and youth 
tutoring and youth involvement in experiential learning.
    A native Texas, Dr. Cardenas received her Bachelor of 
Journalism degree from the University of Texas at Austin and 
her doctorate in education administration from the University 
of Massachusetts at Amherst.
    Welcome, Dr. Cardenas. We are looking forward to your 
testimony.
    Vice Chairman Porter. Thank you.
    Before the witnesses begin their testimony, I'd like to 
remind the members that we'll be asking questions after the 
entire panel has testified.
    In addition, Committee Rule 2 imposes a 5-minute limit on 
all questions.
    Now, for the panel, I just finished reading this great 
script prepared by my staff. Let me go off the script for a 
moment and say again, we appreciate you being here and look 
forward to your testimony.
    There are timer lights and of course stop, go, and we'll 
let you know when your time has lapsed.
    Also, I will be introducing each of you again when it's 
your turn to speak, but we appreciate your being here and look 
forward to your testimony.
    Dr. Lewis.

 STATEMENT OF EARL LEWIS, DEAN OF THE RACKHAM GRADUATE SCHOOL, 
  VICE PROVOST FOR ACADEMIC AFFAIRS FOR GRADUATE STUDIES, AND 
          PROFESSOR OF HISTORY, UNIVERSITY OF MICHIGAN

    Mr. Lewis. Thank you, Mr. Chairman. My name is Earl Lewis. 
I am the past chair of the board of directors of the Council of 
Graduate Schools, a national association that represents all of 
the institutions receiving Javits and GAANN awards, and I'm a 
current member of the Executive Committee of the Association of 
Graduate Schools, which is part of the Association of American 
Universities.
    I am pleased to testify before the Subcommittee on behalf 
of CGS and other educational associations listed in my written 
statement.
    My testimony is on the importance of graduate assistance in 
areas of national need, GAANN, and the Jacob K. Javits 
Fellowships Program in Title VII of the Higher Education Act.
    I will highlight three recommendations to enhance these 
programs so they can better meet national needs.
    To begin, graduate education in the United States is the 
best in the world, so much so that other nations openly admire 
and emulate our graduate programs.
    Congress has made investment in graduate education an 
important national priority. Federal support has helped our 
graduate schools train and prepare new generations of 
outstanding scientists, engineers, doctors, lawyers, business 
and governmental leaders, and scholars and teachers for our 
colleges and universities. This far-sighted national investment 
pays enormous dividends.
    Apart from the great benefits to our knowledge and national 
well-being, let me point out a special reason why Federal 
investment in graduate education is so important.
    Although funding for graduate education comes from a 
variety of sources, the Federal Government is the primary 
source of funds for many students as they seek to finance their 
education. This is because talented students with a master's or 
Ph.D. degree are a highly mobile national resource.
    We have seen in Ann Arbor, for example, how scientists and 
scholars are eager to move to leading sites of research. For 
this reason, Federal investment makes very good sense. Alumni 
of Michigan graduate programs are located at such sites across 
the Nation and around the world, and it is the United States 
that reaps the dividends wherever the individual is employed.
    Unlike graduate education programs authorized in other 
Federal agencies, Title VII funding encompasses the sciences, 
engineering, arts, social sciences, and humanities, and this is 
very important.
    Within Title VII, the GAANN and Javits Fellowship Programs 
work, they really work. They attract exceptionally promising 
students into graduate studies and increase the number of U.S. 
citizens earnings degrees, Ph.D. degrees.
    Let me briefly outline both of these programs, and then 
offer three recommendations.
    GAANN provides competitive grants to academic departments 
and programs in fields that the Secretary of Education 
designates as areas of national need. These programs award 
fellowships to the very best U.S. students.
    In fiscal year 2003, GAANN will provide support to 
approximately 940 graduate students and 180 academic 
departments across the country.
    Meanwhile, the Javits Program has a different but equally 
critical purpose. The Javits Program supports outstanding 
scholars who focus on the study of human values, relations, 
governance, culture, civilization, and belief. Importantly, it 
is the only Federal program to support multi-year doctoral 
studies in the arts and humanities. These awards are portable, 
and the stipend is based upon financial need.
    I come here today, then, to present three recommendations 
for improving the GAANN and Javits Programs under the upcoming 
reauthorization of the Higher Education Act. These 
recommendations will both improve their administration and help 
ensure that the programs achieve their goals.
    First, we need to strengthen the authorized appropriations 
levels for GAANN and Javits. Both GAANN and Javits work well, 
but the annual appropriations process has left them chronically 
underfunded.
    For example, in 1986, 211 Javitses were awarded. In 1995, 
only 25 new Javitses were awarded. This year, 45 were awarded. 
As a nation, we should be doing more.
    Second, we need to eliminate Title IV need analysis and 
replace it with an institution-based approach.
    The Department of Education is the only Federal agency that 
subjects graduate stipend levels to individual financial need 
analysis. This requirement is inconsistent with Federal 
graduate education policy.
    Congress should eliminate the Title IV requirement and 
restore the provision of law that was in effect prior to the 
1998 reauthorization of the Higher Education Act.
    Third, we need to clarify the link between the stipend 
levels of GAANN and Javits and the National Science Foundation 
Graduate Research Fellowship Program.
    Currently, the Higher Education Act states that the stipend 
levels for Javits and GAANN shall be, ``set at a level of 
support equal to that provided by the National Science 
Foundation Graduate Fellowships.''
    This should be clarified so that GAANN and Javits stipend 
levels are set to the levels of the National Science Foundation 
Graduate Research Fellowship Program, rather than to graduate 
fellowships in general.
    So in conclusion, the Title VII Javits and GAANN Programs 
have served our nation well. With Congressional support, they 
will continue to do so.
    The GAANN and Javits programs support exceptionally bright 
and dedicated graduate students who will be tomorrow's leaders. 
Investing in their future is an investment in America.
    I thank you for the opportunity to testify on these 
important issues.
    [The prepared statement of Mr. Lewis follows:]

Statement of Earl Lewis, PhD, Dean of the Rackham Graduate School, Vice 
  Provost for Academic Affairs for Graduate Studies, and Professor of 
  History, University of Michigan, On behalf of: American Council on 
 Education, Association of American Universities, Council of Graduate 
   Schools, National Association of College and University Business 
      Officers, National Association of Independent Colleges and 
Universities, National Association of State Universities and Land-Grant 
      Colleges, and National Association of Student Financial Aid 
                             Administrators

    My name is Earl Lewis and I am the Dean of the Rackham Graduate 
School and Vice Provost for Academic Affairs for Graduate Studies at 
the University of Michigan, where I am also the Elsa Barkley Brown and 
Robin D. G. Kelley Collegiate Professor of History and African-American 
and African Studies. I am pleased to testify before this Subcommittee 
on behalf of the Association of American Universities, the Council of 
Graduate Schools, the National Association of State Universities and 
Land-Grant Colleges, the American Council on Education, the National 
Association of College and University Business Officers, the National 
Association of Independent Colleges and Universities, and the National 
Association of Student Financial Aid Administrators
    My testimony will focus on the history and importance of the 
Graduate Assistance in Areas of National Need (GAANN) and the Jacob K. 
Javits Fellowships programs of Title VII of the Higher Education Act 
(HEA). My testimony will also highlight three recommendations to 
enhance these programs so they can better meet national needs.
        The Importance of Federal Support for Graduate Education
    Graduate programs in the United States are respected and emulated 
worldwide. Our graduate institutions attract the best and brightest 
students domestically and overseas. Our nation's unique system of 
combining graduate education with research strengthens the American 
education system and serves as the backbone for our nation's leadership 
in science and technology. Graduate education is the primary way our 
nation educates and trains scientists, engineers, doctors, lawyers, 
business and government leaders, and college and university faculty.
    Graduate education prepares the scientists and engineers needed by 
industry, government, and universities to conduct the nation's research 
and development. Graduate programs also educate the scholars in the 
humanities, social sciences, and the arts who preserve and enlarge our 
understanding of the history and scope of human thought and the human 
condition, and transmit that knowledge to succeeding generations. 
Moreover, graduate programs at our nation's universities generate new 
knowledge and act as incubators of innovative ideas that drive new 
technologies and create new ways to address societal, health, security, 
and economic needs and challenges.
    GAANN and Javits are two important and complementary elements of 
the federal government's investment in graduate education. The federal 
government provides support for graduate education through: 
competitively funded fellowships, like Javits Fellowships; 
traineeships, like GAANN; research and teaching assistantships; work 
study; tax breaks; and student loans. In many disciplines, most federal 
support for graduate students is provided through research 
assistantships. However, the federal government provides significant 
levels of support in the form of competitively awarded fellowships and 
traineeships as well. These awards are given to exceptional U.S. 
students and permanent residents who hold great promise in their chosen 
field of study, and these awards help to meet national needs for high 
quality talent.
    Federal support for graduate education comes from multiple mission-
driven agencies and Cabinet-level departments, including the National 
Science Foundation, the National Institutes of Health, NASA, the 
Department of Defense, the Department of Energy, the Department of 
Agriculture, the Department of State, the Environmental Protection 
Agency, and of course, the Department of Education.
    According to the National Center for Education Statistics, in 1999-
2000, 60 percent of all graduate and professional students and 82 
percent of those enrolled full time, full year received some type of 
financial aid, including grants, fellowships, loans, assistantships or 
work study.
    The federal investment in graduate education fills the same crucial 
funding gap that federal support provides for basic research. Although 
graduate students benefit from state investments, private foundation 
support, industry funding, and institutional resources, the federal 
government is the primary source of funds for students to finance their 
education. Talented students with a master's or Ph.D. degree are a 
highly mobile national resource. For that reason, states are reluctant 
to invest in graduate education. When the federal government makes the 
investment, the nation reaps the dividends regardless of where the 
recipient of the assistance ends up employed.
    Title VII graduate education programs play an integral role in the 
support of American students pursuing graduate degrees. Unlike graduate 
education programs authorized in other federal agencies, the Title VII 
graduate education programs administered by the Department of Education 
provide support for the entire range of academic disciplines, including 
the sciences, engineering, arts, social sciences, and humanities.
    The GAANN and Javits Fellowship programs of Title VII are designed 
to increase the number of talented college graduates who pursue careers 
in teaching and research. The GAANN program supports academically-
gifted students in the areas of national need such as biology, 
engineering, physics, and mathematics. The Javits program provides 
fellowships to outstanding students in the arts, humanities, and social 
sciences. Both of these programs attract exceptionally promising 
students into graduate study and in so doing, they increase the number 
of U.S. citizens earning Ph.D.s in important areas that are currently 
experiencing low U.S. enrollments. Together, GAANN and Javits 
complement each other and play an important role in supporting key 
academic disciplines vital to the nation's scientific, technological, 
economic, security, cultural, and societal needs.
         Graduate Assistance in Areas of National Need (GAANN)
    GAANN, first authorized in 1992, was designed to reverse the 
decline in the number of U.S. students enrolling in graduate programs 
in fields critical to the nation. It closely resembles the National 
Defense Education Act of 1958, which was highly successful in drawing 
new talent into our nation's doctoral programs following the launching 
of Sputnik. Federal support of GAANN is a key mechanism for attracting 
talented U.S. students to doctoral programs in areas of great 
importance to our nation.
    GAANN provides competitive grants to academic departments and 
programs at colleges and universities that in turn award fellowships to 
excellent students who pursue the highest degree available in a field 
designated by the Secretary of Education as an area of national need. 
The current areas of national need are: Biology, Chemistry, Computer 
and Information Science, Engineering, Geological Science, Mathematics, 
and Physics. The Secretary also accepts multidisciplinary and 
interdisciplinary applications, which propose projects incorporating 
two or more areas of national need. Institutions that receive GAANN 
awards are required to provide a matching contribution equal to at 
least 25 percent of the amount of the grant received.
    For fiscal year 2003, 261 proposals were received by the Department 
of Education and 94 new proposals were selected. These new awards will 
support just over 500 new graduate students. In total, GAANN will 
provide support to 180 academic departments (new and continuing awards) 
that will support approximately 940 graduate students in fiscal year 
2003. The average award will be approximately $203,000 and the maximum 
stipend level award to be given to students is $21,500, (the actual 
amount is based on the recipient's financial need), plus an 
institutional payment to cover tuition and fees in the amount of 
$11,296 for each student.
    At the University of Michigan, five academic departments currently 
receive GAANN awards, including Applied Physics, Chemistry, Chemical 
Engineering, Electrical Engineering, and Geological Sciences. These 
awards will support about 25 students in the academic year that is now 
underway. In addition to these, since 1998 the University of Michigan 
has received four other GAANN awards in Biomedical Engineering, 
Chemical Engineering, and Computer Science, and Industrial Operations.
    GAANN traineeships enable some of the nation's brightest doctoral 
students to become the scientists, teachers, and scholars of tomorrow. 
These students become responsible for the discovery and dissemination 
of new knowledge that is crucial to our nation's vitality.
    Let me offer one example of how GAANN is making a difference in 
graduate education at the University of Michigan. The award to the 
Chemistry department is being used to broaden doctoral education by 
deeply integrating the Ph.D. work of the GAANN recipients with an 
innovative scholarly component on undergraduate teaching and learning. 
This is a cutting-edge model of integrative graduate training in both 
research and learning that responds to a national need for 
strengthening science education at the undergraduate level while 
ensuring the continued excellence of research-based graduate education.
                      Jacob K. Javits Fellowships
    Originally named the National Graduate Fellows Program, the Jacob 
K. Javits Fellowships program was created by Congress as a part of the 
1980 reauthorization of the HEA. Senator Javits'' original purpose for 
the program was to create a counterpart to the National Science 
Foundation's (NSF) Graduate Research Fellowship Program. Specifically, 
he proposed that the program should encourage highly talented students 
to undertake doctoral study in the arts, humanities, and social 
sciences by providing a level of support comparable to federally-funded 
graduate fellowships in science and engineering fields. Javits is the 
only federal program that supports multi-year doctoral study in the 
arts and humanities.
    Competition for the Javits Fellowships is selective and is based 
solely upon academic merit, and award levels are currently determined 
by each student's financial need. Javits Fellowships are portable. This 
provides the students the ability to select programs that, in their 
view, provide the best training in a given field. This portability also 
facilitates the pursuit of interdisciplinary studies by Javits fellows. 
Importantly, Javits supports individuals who in many cases are pursuing 
academic careers in fields where financial rewards upon Ph.D. 
completion are relatively small.
    Javits is one of the most competitive fellowship programs in the 
nation, with approximately 35 applicants for each award. Although the 
selection criteria are different, there are fewer applicants per award 
for the prestigious Rhodes scholarships than there are for Javits 
Fellowships. With this intense competition, the program is supporting 
the brightest students who have the highest potential to become the 
eminent scholars and notable teachers and leaders of the future.
    This year, 1,676 applications were received by the Department of 
Education and 45 new fellows were selected. In total, Javits will 
support 309 new (45) and continuing (264) fellows in fiscal year 2003, 
and an estimated 307 new (102) and continuing (205) fellows in fiscal 
year 2004. This is far below the peak number of fellows the program 
supported in academic year 2001 at 420 fellows. The maximum stipend 
level award to be given to students for fiscal year 2003 is $21,500, 
(the actual amount is based on the recipient's financial need), plus an 
institutional payment to cover tuition and fees in the amount of 
$11,296.
    The University of Michigan is proud to have nine Javits fellows 
enrolled this year in the disciplines of Anthropology, History, Music, 
Political Science, Psychology, and Women's Studies. I believe that the 
excellence of the Javits fellows at my university is indicative of all 
Javits fellows and the promise they hold for contributing to our 
society.
    Graduate education in the humanities, social sciences, and the arts 
produces the teachers and scholars who provide students with the tools 
for exploring human thought and creative expression, connect them with 
their common intellectual inheritance, and enrich their capacity for 
critical thinking by applying the lessons of the past to current 
problems and future challenges. In the classroom and beyond, teaching 
and scholarship in the humanities, social sciences, and the arts inform 
the public discourse essential to the functioning of our democracy.
    In a September 2002 speech, Catharine Stimpson the Dean of the 
Graduate School of Arts and Science at New York University noted the 
importance of the humanities, arts, and social sciences to the current 
challenges facing our nation. She said:
        Let me offer one stark, contemporary example: a man planning a 
        major act of bioterrorism. We won't get him - in all meanings 
        of that word - if all that we do is to declare war and have law 
        enforcement target him. We also need the artist to imagine him; 
        the humanist to hear his own words and translate his languages, 
        and understand his history and religion; the social scientist 
        to map his politics, ethnography, and psychology; and the 
        scientist to decipher what his weapon is and how to disarm it. 
        Only with this collaboration will we begin to be able to 
        understand him, and only if we understand him, can we really 
        stop him and the next generation of terrorists he might be 
        recruiting.
    More recently, the Javits Board noted the value of the Javits 
program in its May 2003 report. The report states:
        [T]he Javits program supports outstanding scholars whose 
        research focuses on human values, relations, governance, 
        culture, civilization, and belief. As our world grows 
        increasingly interconnected and the consequences of human 
        decisions more profound, we are reminded of the importance of 
        continuing to develop cohorts of future educators and leaders 
        who are well versed in these areas of inquiry and prepared to 
        make informed and balanced judgments for the human good.
      Recommendations for GAANN and Javits for HEA Reauthorization
    Both the GAANN and Javits programs work well but have been 
chronically underfunded in the federal government's annual 
appropriations process. The programs should be reauthorized to continue 
the complementary arrangement of traineeships in areas of national 
need, such as science and engineering, and through fellowships to 
students in the arts, humanities, and social sciences. The programs 
could benefit from some important enhancements that will improve their 
administration and the ability of the programs to achieve their goals.
    To this end, I make the following recommendations:
     I. LStrengthen the authorized appropriations levels for GAANN and 
Javits;
     II. LEliminate Title IV need analysis, and replace with 
institution-based approach; and
    III. LClarify link between the stipend levels of GAANN and Javits 
and the National Science Foundation Graduate Research Fellowship 
Program.
I. Strengthen the Authorized Appropriations Levels for GAANN and Javits
    Adequate numbers of student awards are important to sustain the 
vitality and effectiveness of GAANN and Javits. Appropriations for 
these programs have not kept pace with inflation or their authorized 
funding levels for more than a decade. For example, Javits has a long 
history of inconsistent funding. The annual number of new Javits 
fellowships awarded has fluctuated significantly since the inception of 
the program. The programmatic high was in 1986 when 211 new fellowships 
were awarded. In 1995, only 25 new fellowships were awarded.
    Congress should use reauthorization of the HEA as an opportunity to 
strengthen the nation's commitment to graduate education by authorizing 
increased funding for GAANN and Javits. Specifically, we recommend that 
sufficient funding be authorized to support at least an annual total of 
1,200 GAANN traineeships, including 400 new awards, and an annual total 
of at least 400 Javits fellowships, including 100 new awards 
<SUP>1</SUP>. These levels of investment would reinvigorate GAANN and 
Javits at a time when our nation must have the intellectual capability 
to respond to increased national security threats and to maintain our 
leadership position in the world economy.
---------------------------------------------------------------------------
    \1\ The Jacob K. Javits Board recommended in its May 2003 report 
that program should award 180 new fellowships each year, which is 
approximately equal to 20 percent of the NSF Graduate Research 
Fellowships awarded annually. The higher education community in January 
2003 recommended a minimum of at least 100 new awards annually. The 
higher education community endorses the Javits Board recommendation of 
a target of 180 new awards annually.
---------------------------------------------------------------------------
II. Eliminate Title IV Need Analysis, and Replace with Institution-
        Based Approach
    As previously noted, current law requires that applicants for GAANN 
and Javits programs undergo HEA Title IV federal need analysis to 
determine the amount of their stipend awards to students. All graduate 
and professional students are by definition independent students and 
therefore, highly likely to have financial need. Moreover, if a student 
is married or worked the year prior to enrollment, the government will 
likely determine that there is no need. In such cases, the financial 
aid officer is permitted to exercise professional judgment and can 
decide to override the government's calculation and determine that the 
student is eligible for some or all the GAANN or Javits stipend award.
    The Department of Education is the only federal agency that 
subjects graduate stipend levels to financial need analysis and in this 
way it is inconsistent with federal graduate education policy. In fact, 
Department of Education is inconsistent within itself: other programs 
in the Department that provide support to graduate students, such as 
the Fulbright-Hays and Foreign Language and Area Studies Fellowships, 
do not require need analysis in determining student award levels.
    Federal need analysis is primarily an undergraduate student aid 
policy and it should not be applied to graduate stipend awards. The 
higher education community is fully supportive of keeping undergraduate 
student aid need-based. For several decades, federal graduate education 
policy's central principle has been merit-based support - attracting 
and investing in the very best students. This should continue to be the 
case and should apply to all federal graduate education programs.
    With respect to the practical application of the Title IV need 
analysis to GAANN and Javits, it often causes lengthy delays in 
processing applications. Sometimes it takes so long to determine need 
using the federal process that a student may not know how much the 
stipend will be when she or he has to decide where to use the Javits 
award - thus hampering the student's ability to exercise the 
portability of the funding. In the case of GAANN, sometimes the 
institutional sponsor receiving the award can not tell a student how 
much his/her award will be in the appropriate time frame for when such 
decisions need to be made.
    In the end, instead of yielding helpful distinctions among the 
applicant pool, the required use of Title IV need analysis creates 
difficulties for students, institutions, and the Department. Congress 
should reconsider a provision originally included in the higher 
education community's FED UP recommendations that eliminated this 
requirement and restored the provision in law prior to the 1998 
reauthorization of the HEA. This provision required institutions (not 
the federal government) to determine an individual student's financial 
need. This recommendation would remove the largest part of the burden 
imposed by the government, and most institutions that have significant 
graduate education programs already have systems in place to determine 
student need.
    Returning to an institutionally-based need analysis methodology 
would reduce paperwork and eliminate severe delays in application 
processing while still ensuring that financial support is reserved for 
students with demonstrated need.
III. Clarify the Link Between the Stipend Levels of GAANN and Javits 
        and the National Science Foundation Graduate Research 
        Fellowship Program.
    Congress should clarify the HEA statutory link between the stipend 
levels for GAANN and Javits student awards to the stipend level for the 
National Science Foundation Graduate Research Fellowship (GRF) program. 
Currently the HEA states that the stipend levels for Javits and GAANN 
shall be ``set at a level of support equal to that provided by the 
National Science Foundation graduate fellowships.'' GAANN and Javits 
stipend levels have historically been linked to the GRF stipend level. 
The HEA should be amended to reflect this historical link in order to 
avoid potential confusion of Congressional intent due to the other 
graduate fellowship programs NSF also supports.
                               Conclusion
    The Title VII Javits and GAANN programs have served our nation well 
and will continue to do so in the future with Congressional support.
    The nation's bright graduate students who benefit most directly 
from GAANN and Javits increase our nation's scientific and 
technological capacities and improve our society's collective ability 
to make informed and balanced judgments. They become responsible for 
the discovery and dissemination of new knowledge and the preservation 
and interpretation of our scientific, intellectual, and cultural 
heritage. Investing in these bright and talented individuals is 
beneficial for all Americans.
    I thank you for the opportunity to testify on these important 
issues.
                                 ______
                                 
    Vice Chairman Porter. Thank you, Dr. Lewis. We appreciate 
your testimony.
    Next, we have Mr. Hall.

STATEMENT OF DANIEL HALL, VICE PRESIDENT FOR EXTERNAL AFFAIRS, 
  UNIVERSITY OF LOUISVILLE AND CHAIRMAN, GOVERNMENT RELATIONS 
COMMITTEE, COUNCIL ON LEGAL EDUCATION OPPORTUNITY, ACCOMPANIED 
BY WILLIAM ``BUD'' BLAKEY, CHAIRMAN, COUNCIL ON LEGAL EDUCATION 
                          OPPORTUNITY

    Mr. Hall. Good afternoon. Chairman Porter and Ranking 
Minority Member Hinojosa, my name is Daniel Hall, and I am vice 
president for external affairs at the University of Louisville.
    Thirty years ago, I was privileged to have been accepted 
into the 1973 Council on Legal Education Opportunity (CLEO) 
Summer Institute at Indiana University-Purdue University in 
Indianapolis following my graduation from Dartmouth College and 
just prior to matriculating into Harvard Law School.
    My CLEO experience prepared me for academic success at 
Harvard, but it also laid the foundation for a successful 
professional career. It is that kind of experience which the 
Thurgood Marshall Legal Educational Opportunity Program 
provides today to many minorities and disadvantaged students. 
We encourage Congress to continue to support this important 
program.
    I appear today as chairman of the Governmental Relations 
Committee of the Council on Legal Education Opportunity, known 
as CLEO, which administers the Thurgood Marshall Legal 
Educational Opportunity Program under a grant with the U.S. 
Department of Education.
    This program is authorized in Title VII, Part A, Subpart 3 
of the Higher Education Act of 1965, as amended.
    Our CLEO Council chair, Mr. William ``Bud'' Blakey is with 
me today, sitting behind me, and we will respond to any 
questions that you may have at the conclusion of my testimony.
    Mr. Chairman, I thank you for this opportunity to appear 
and to offer our recommendations for reauthorization of this 
important program which for 35 years has made a critical 
contribution to expanding legal education opportunities and 
increasing diversity in the legal profession.
    My prepared statement provides the Committee with a 
detailed recitation of CLEO's history, of the emergence of the 
Thurgood Marshall Legal Educational Opportunity Program as part 
of the 1998 higher education amendments, and the documentation 
of the need to continue this public-private partnership that is 
growing a diverse cadre of persons entering into the legal 
profession.
    Our reauthorization recommendations will continue the 
progress already being made to achieve three goals through the 
Thurgood Marshall Program:
    First, implementing a comprehensive program to increase the 
number of low-income and minority students successfully 
entering and completing an accredited legal education 
curriculum and securing admission to the bar;
    Two, developing and sustaining pre-law programs which build 
a pipeline of qualified students capable of successfully 
completing law school; and
    Three, reducing student debt burdens for Thurgood Marshall 
fellows by providing grants to eligible students in order to 
encourage their entry into public service, community service, 
and pro bono service following law school graduation.
    We recommend the following modifications in Title VII, Part 
A, Subpart 3:
    First, make explicit the authority in Section 721(c) of the 
Act to make fellowship awards to eligible Marshall Fellows;
    Second, authorize CLEO to implement activities with pre-
college students and to make sub-grants to local and state bar 
associations, national bar associations, and law schools or 
consortia thereof to operate these pre-college programs;
    Third, authorize CLEO to make Thurgood Marshall fellowships 
available to students who complete similar ``CLEO-like'' summer 
institute programs; and
    Fourth, increase the authorization in Section 721(h) in 
fiscal year 2005 to $10 million, and add ``such sums as may be 
necessary'' in each of the four succeeding fiscal years.
    Finally, we also hope that the Congress will consider 
transferring the Thurgood Marshall Legal Educational 
Opportunity Program from Title VII to Title IV of this Act.
    The Council believes that the Thurgood Marshall Program is 
more closely akin to the Federal TRIO Programs, especially the 
Ronald McNair Post-Baccalaureate Achievement Program and the 
GEAR-UP Program in purpose and function, compared to the 
traditional graduate fellowship programs in Title VII.
    Mr. Chairman, this concludes my remarks. Mr. Blakey and I 
will be prepared to answer any questions that you or other 
Subcommittee members may have. Thank you.
    [The prepared statement of Mr. Hall follows:]

    Statement of Daniel Hall, Vice President for External Affairs, 
University of Louisville, and Chairman, Government Relations Committee, 
                 Council on Legal Education Opportunity

    Chairman Hoekstra and Ranking Democratic Member Hinojosa, I am 
Daniel Hall, Vice President for External Affairs at the University of 
Louisville in Louisville, Kentucky. I am privileged to have been a 
participant in the 1973 CLEO Summer Institute at Indiana University-
Purdue University at Indianapolis (IUPUI) following graduation from 
Dartmouth College, in June 1973, and prior to my matriculation and 
graduation from the Harvard Law School, in June 1976. My CLEO 
experience not only prepared me for academic success at Harvard, but 
also laid the foundation on which a solid professional career has been 
created. It is that kind of experience, which the Thurgood Marshall 
legal educational opportunity program provides today, which we 
encourage the congress to continue to support.
    I appear today on behalf of the Council on Legal Education 
Opportunity (CLEO) which administers the Thurgood Marshall Legal 
Education Opportunity Program under a contract with the U.S. Department 
of Education. The Thurgood Marshall Legal Education Opportunity Program 
is authorized in Title VII, Part A, Subpart 3 of the Higher Education 
Act of 1965, as amended. I am pleased to serve as chair of the CLEO 
Council's Government Affairs Committee. Our CLEO Council Chair, William 
A. ``Bud'' Blakey is with me today. We will respond to any questions 
that you may have at the conclusion of my testimony.
    Mr. Chairman, I want thank you for this opportunity to appear today 
and to offer our recommendations for reauthorization of this important 
program which for thirty-five years has made a critical contribution to 
expanding legal education opportunities and increasing diversity in the 
legal profession. My prepared statement provides the committee with a 
detailed recitation of cleo's history, of the emergence of the Thurgood 
Marshall Legal Education Opportunity Program as part of the 1998 higher 
education amendments, and documentation of the need to continue the 
public-private partnership that which is growing a diverse cadre of 
persons preparing to enter the legal profession.
    Our reauthorization recommendations will continue the progress 
already being made to achieve three goals through the Thurgood Marshall 
Program: (1) implementing a comprehensive program to increase the 
number of low-income and minority students successfully entering and 
completing an accredited legal education curriculum and securing 
admission to the bar; (2) developing and sustaining pre-law programs 
which build a pipeline of qualified students capable of successfully 
completing law school; and (3) reducing student debt burdens for 
Thurgood Marshall fellows by providing grants to eligible students in 
order to encourage their entry into public service, community service 
and pro bono service following law school graduation.
    We recommend the following modifications in Title VII, Part A, 
Subpart 3;
    <bullet> Lclarify the authority in section 721(c) of the act to 
make fellowship awards to eligible Marshall fellows;
    <bullet> Lauthorize CLEO to implement activities with pre-college 
students, and to make sub-grants to local and state bar associations, 
national bar associations, and law schools (or consortia of such 
entities) to operate pre-college programs;
    <bullet> Lauthorize CLEO to make Thurgood Marshall fellowships 
available to students who complete `CLEO-like'' summer institute 
programs; and
    <bullet> Lincrease the authorization in section 721 (h) in fiscal 
year 2005 to $10 million, and ``such sums as may be necessary'' in each 
of the four succeeding fiscal years.
        We also hope that the congress will consider transferring the 
        Thurgood Marshall Legal Educational Opportunity Program from 
        Title VII to Title IV of the Act. The council believes that the 
        Thurgood Marshall program is more closely akin to the Federal 
        TRIO programs, especially the Ronald McNair Post-baccalaureate 
        Achievement Program and the GEAR-UP Program in purpose and 
        function than the traditional graduate fellowship programs in 
        Title VII.
    Mr. Chairman, Bud Blakey and I would be pleased to answer any 
questions you or other members of the Subcommittee may have.
                                 ______
                                 
    Vice Chairman Porter. Thank you, Mr. Hall. We appreciate 
your testimony.
    Dr. Allen.

  STATEMENT OF WILLIAM BARCLAY ALLEN, PROFESSOR OF POLITICAL 
     PHILOSOPHY AND DIRECTOR, PROGRAM IN PUBLIC POLICY AND 
           ADMINISTRATION, MICHIGAN STATE UNIVERSITY

    Mr. Allen. Good afternoon, Chairman Porter, Ranking Member 
Hinojosa, and members. I'm delighted to be with you.
    I am William Allen. I am a professor at Michigan State 
University. I teach. I have taught for a very, very long time.
    I speak this afternoon not on my own behalf, but in support 
of large numbers of people who have taken increased concern 
with the problem we now face in American higher education of 
simply preparing teachers enough to ensure that all the 
students who enroll in our programs are fully conversant with 
the principles of freedom and the history of this nation.
    I speak in support of H.R. 2336, the amendment to the 
higher education authorization, which is called the Higher 
Education for Freedom Act. I do so because I have learned in 
many ways, direct and indirect, how important it would be for 
the Congress of this nation to take account of this very 
targeted and special need.
    Congress' interest in higher education had its standard set 
in 1862 with the passage of the Morrow Act, and since that 
time, on numerous occasions, we have seen Congress take special 
notice of needs that would advance the cause of higher 
education and access to higher education in this country.
    In my written testimony, which I've submitted to you and 
which I now summarize, I signal particularly the National 
Defense Education Act, from which I benefited in the late 
1950's, an Act which certainly, in the aftermath of Sputnik, 
played its role in leading to the eventual landing of a man on 
the moon.
    That was a very targeted response which Congress took in 
hand because the Nation had a very specific problem--deficits 
in its scientific and mathematics education.
    I call to your attention this afternoon significant 
deficits in the teaching of our civic principles--where we come 
from and why we are the way we are. America is in a very 
special place in the world because it can't be referred to as a 
mere culture or a mere ethnicity. America is principles. It is 
specific decisions tied to principles. It is a history which 
must be taught.
    We now have more than 15 million students receiving 
education in our colleges and universities, a wonderful 
achievement, and that number is growing. That number 
implicates, however, if each and every single one were to be 
fully conversant with the history of this nation, a minimum of 
125,000 persons prepared to teach. We don't have one-tenth that 
number actually carrying out that task.
    I could talk about the fact that standards have changed, 
that requirements have changed, that colleges and universities 
aren't asking students routinely and systematically to study 
American history, but what I want to do is to focus your 
attention on our need to make it possible for such requirements 
to occur.
    I want to focus your attention on what we might do by 
establishing centers and programs, as H.R. 2326 requests, that 
would assure that Americans will know America, among all the 
other many and valued things that they do, indeed learn.
    You will find plenty of citations to the specific deficits, 
and in recent years even Congress has passed a resolution to 
underscore the need for American students to learn more 
American history, particularly as they graduate from our 
colleges and universities. That is the need that brings me 
before you this afternoon in support of this particular 
legislation.
    In the book that I have recently co-authored with my wife, 
``Habits of Mind'' I confess that we've tried to make the 
case--as clear as can be--for this need for curricular 
intervention, but it is not an intervention in the curriculum.
    It is an intervention in support or curriculum. It is an 
intervention in support of preparation. It is an intervention 
in support of graduate study that will make it possible for 
those of us who continue to try to do these things to do so 
with increasing success, and that is the reason I bring it to 
your attention this afternoon.
    I thank you very much, and I stand ready to respond to your 
inquiries.
    [The prepared statement of Mr. Allen follows:]

    Statement of William Barclay Allen, PhD, Professor of Political 
 Philosophy and Director, Program in Public Policy and Administration, 
                       Michigan State University

    In my junior year in high school, I took advantage of a wonderful 
opportunity to spend a summer studying advanced science courses at a 
university. This opportunity was extended to me thanks to the National 
Defense Education Act, a targeted response to the need to spur and 
revamp science education in the aftermath of the Sputnik launching. 
Congress at that time believed that it was necessary to make special 
efforts to encourage students to sustain an interest in the study of 
natural sciences. In my case, the effort was successful, for I 
continued thereafter to study, and ever since have sustained an 
interest in and some knowledge of, the natural sciences (although I 
turned to the humanities and social sciences as my vocation).
    The strong sense of national purpose that informed Congress'' Act 
in the late 1950s is no less requisite now, in 2003. This time, 
however, our most glaring deficits lie in teaching (and preparing 
teachers of) traditional American history and Western civilization. 
Carol Allen and I, in our recently published book, Habits of Mind: 
Fostering Access and Excellence in Higher Education, have highlighted 
this specific need in explaining why undergraduate education requires 
renewed commitment and emphasis. <SUP>1</SUP>*
---------------------------------------------------------------------------
    \1\ * I would call your attention particularly to pages 17-26, 37-
49, and 58-73, the last of which specifically cites a general education 
curriculum that would respond to this need.
---------------------------------------------------------------------------
    Among the circumstances cited in that work we highlight the gradual 
disappearance of university requirements in traditional American 
history and western civilization. You should note that, parallel to a 
decline in university requirements for undergraduates, American higher 
education has also experienced a significant decline in the preparation 
of professors and teachers in those areas and specifically pursuing the 
understanding of free institutions. While it is true that we continue 
to prepare graduate students of history and related disciplines, such 
as political science, such training has tended to reflect valuable but 
far more specialized concentration on advances in historical 
understanding and current policy alternatives (and on some occasions, 
merely faddish ideological indulgence). Concomitantly, our disciplines 
reduced their focus on recapitulating the foundations of national life 
as well as significant domestic and international developments in light 
of those foundations.
    A direct consequence of this trend has been an erosion of the 
training of professors (and therefore K-12 teachers) to preserve broad 
familiarity with facts, texts, and significant dates affecting our 
civic existence. A targeted response to this situation, cutting across 
disciplinary distinctions, will meaningfully strengthen the academy's 
ability to play a central role in fostering content mastery regarding 
the significant moral, constitutional, political, intellectual, 
economic, cultural, and international influences revealed through 
American history. H. R. 2336, amending the Higher Education Act, is 
just such a targeted response, providing direct impetus for expanding 
awareness of the conditions of freedom and free political institutions.
    It is perhaps safe to say that nowhere in the world are peoples so 
heedless of the need to perpetuate familiarity with the terms of their 
own political existences as we so often seem to be in the United 
States. General education curricula tend to treat the history of 
American constitutionalism as if it were merely one in a well-nigh 
infinite list of interesting facts that students might learn over the 
course of a university career, rather than as a necessary support for 
those who, in their own turn, must assume the management of free 
institutions.
    When George Washington spoke and wrote of the need for an 
appropriate higher education for republican government, he made clear 
that he envisioned a preparation of citizens for the performance of the 
distinctive duties of self-government. He knew that we did not merely 
emerge from nature fully clothed in righteous devotion to liberty, just 
as he also knew that government itself could not supply a virtue that 
the citizens lacked. What was most insightful, however, was his 
awareness that those who begin the career of freedom, clothed with 
virtues that breed confidence in liberty, must omit no opportunity to 
improve upon the likelihood that their offspring will be no less 
favorably situated than themselves. No single undertaking can provide 
for such success so effectively as regular instruction.
    I, for one, would love to be able to think that my teaching, and 
that of like-minded colleagues, could reach beyond the few who self-
select and instead nurture in students generally a disposition to take 
America seriously, to recognize its exemplary claims as well as its 
characteristic responses to its most enduring problems, and to 
appreciate the force of its powerful example for humankind.
    The people are meant to rule. To that end they have no recourse but 
to their opinions. Their opinions, in turn, can sustain a rule no 
better than the value of those same opinions. Where the people's 
opinions are informed and grounded in genuine appreciation for the 
ardors of constitutional patriotism, we can all willingly rest our 
fates on the people's judgments. But this will not happen where a 
multitudinous people are exposed to no more than a random, haphazard 
introduction to the principles of the polity.
    Finally, I would observe that such a targeted, special initiative 
would achieve important national objectives, which themselves are far 
broader and more important than the interests of any particular 
discipline. The National Defense Education Act encountered suspicions 
among those who thought that they alone should define scientific 
education. In the end, though, both science and the national interest 
were served by that dramatic venture. Doubtless, the eventual Apollo 
mission to the moon was its reward. And, so, in the present case, a 
deliberate effort to revivify national memory can serve the interests 
both of our nation and of the professional disciplines, which will 
benefit when the general public will have a better sense of how the 
present emerged from the past.
                                 ______
                                 
    Vice Chairman Porter. Thank you very much. We appreciate 
it, Dr. Allen.
    Next, we have Dr. Cardenas. Welcome.

STATEMENT OF BLANDINA CARDENAS, DEAN, COLLEGE OF EDUCATION AND 
     HUMAN DEVELOPMENT, UNIVERSITY OF TEXAS AT SAN ANTONIO

    Ms. Cardenas. Mr. Chairman and members of the Subcommittee, 
my name is Blandina Cardenas. For 3 years, I have served as 
dean of the College of Education and Human Development at the 
University of Texas at San Antonio.
    I appreciate the opportunity to present my views on Title 
VII of the Higher Education Act, and very specifically to 
address issues of that pipeline of faculty, much as the former 
witness addressed, in this case, the pipeline that produces 
faculty that produces teachers in areas of high need.
    UTSA is the fastest-growing, and on many measures, most 
successful university in Texas. In the last 4 years, our 
enrollment has grown from 18,830 to our current enrollment of 
almost 25,000 students. Our freshman to sophomore retention 
rate has increased from 58 percent in the year 2000 to 77 
percent in 2003, with an 89 percent retention rate for our 
African-American population and a 79 percent retention rate for 
our Latino population.
    Last year, we graduated 683 teachers, up from 370 in 1999. 
Most importantly, our pass rate on the state teacher licensing 
exam has gone from 85 percent in 1999 to a very proud 97 
percent in 2002.
    In the face of an explosion in the demand for higher 
education in Texas, UTSA may well reach an enrollment of 30,000 
within 3 years. To cope with this demand, we anticipate filling 
250 new faculty positions in the next 4 years. Fifty, and if I 
can convince the provost, 60 of those new positions will be in 
the College of Education and Human Development.
    As dean of the College of Education and Human Development, 
I have a fundamental responsibility to ensure that we focus on 
the needs in our K-12 schools. I meet with superintendents 
regularly and they advise me that their most pressing need is 
for teachers in math, science, bilingual, ESL, dual language 
education, and special education.
    The need for highly qualified teachers in these 
specializations is confirmed in state and national data. It is 
pervasive and growing. It will not get better until there is a 
significant investment in producing the highly qualified 
education faculty to train teachers in these fields.
    In the 3 years that I have been responsible for hiring 
faculty for our college, I have concluded that the shortages in 
specialized teachers for the nation's schools track directly to 
the shortage of qualified faculty in these fields. The pipeline 
for producing highly qualified classroom teachers in these 
fields will remain grossly inadequate for as long as the 
pipeline for producing faculty in these fields remains 
unattended.
    UTSA has a nationally recognized program in bilingual, ESL, 
and dual language. We offer both the bachelor's and master's 
degree and a doctorate in Culture, Language, and Literacy.
    In spite of our strong reputation and in spite of the 
attraction of San Antonio, two positions in bilingual education 
have remained unfilled through two hiring cycles.
    Our experience in special education is better. We have 
hired two assistant professors in special education, but we 
have had three vacancies, and the candidate pools for these 
hires have been exceedingly small, and we've had to pay a very 
top price.
    Lamentably, there is not a single special education faculty 
member at UTSA who has expertise in meeting the special 
education needs of limited English-proficient children, and 
that probably has something to do with the fact that there are 
only about four people with this combined expertise in the 
faculty ranks across the nation.
    We need bilingual education and special education faculty 
because all teachers need preparation in these fields.
    We've redesigned our programs so that all our teacher 
candidates are required to take at least two courses in ESL/
bilingual and one course in special education and another in 
inclusion. We've also doubled our math and science requirements 
for our K-8 teacher preparation program.
    Now, all teachers need at least minimal preparation in 
these fields, because we're a mobile nation. Teachers move from 
state to state, and the limited English-proficient population 
is growing everywhere. If you don't have limited English-
proficient students in your back yard now, wait a few years.
    No longer a regional phenomenon, the LEP population in this 
country has nearly doubled in the last decade. Increasing at 
eight times the rate of the total student enrollment, LEP 
students comprise 9.6 percent of the total public student 
population. The preparation of highly qualified teachers to 
meet the needs of these students is a national imperative.
    Now, throughout the nation, school districts are taking 
extraordinary measures to recruit teachers with these skills.
    School districts in Georgia, Iowa, and North Carolina 
regularly recruit newly prepared teachers in the high-producing 
Southwestern states where the demand for highly qualified 
bilingual teachers is just as great. Other school districts are 
recruiting in foreign countries.
    Now, let me say again, and let me conclude by saying, that 
we won't meet the challenge of providing teachers if we don't 
have the faculty, and fellowships and financial support that 
are critical. When we had fellowships in this area, the 
University of Texas was producing 10 doctorates a year in this 
area. They're now down from one to three, because they have no 
fellowships. We need teachers, our best teachers, to become 
faculty, because they're the ones who are going to train in 
those classroom procedures, but teachers don't make a lot of 
money, and they can't afford to go off and spend money on a 
doctorate without support.
    So I urge the Committee to consider these needs as they 
consider the legislation.
    Thank you very much.
    [The prepared statement of Ms. Cardenas follows:]

 Statement of Blandina Cardenas, Dean, College of Education and Human 
            Development, University of Texas at San Antonio

    My name is Blandina Cardenas. For three years I have served as Dean 
of the College of Education and Human Development at the University of 
Texas at San Antonio. I appreciate the opportunity to present my views 
on Title VII of the Higher Education Act.
    UTSA is the fastest growing and, on many measures, most successful 
university in Texas. In the last four years our enrollment has grown 
from 18,830 to our current enrollment of 24, 869 students. Our freshman 
to sophomore retention rate has increased from 58% in 2000 to 77 
percent in 2003. Last year we graduated 683 teachers, up from 370 in 
1999. Most importantly our pass rate on the state teacher-licensing 
exam has gone from 85 percent in 1999 to 97 percent in 2002. In the 
face of an explosion in the demand for higher education in Texas, UTSA 
may well reach an enrollment of 30,000 within three years. To cope with 
this demand we anticipate filling 250 new faculty positions in the next 
four years. Fifty of those new positions will be in the COEHD.
    As Dean of the College of Education and Human Development, I have 
the responsibility to ensure that we are clearly focused on the needs 
in our k-12 schools. Superintendents consistently advise us that their 
most pressing need is for teachers in math, science, bilingual, ESL and 
dual language education and special education.
    The need for highly qualified teachers in these specializations is 
confirmed in state and national data. It is pervasive and growing. It 
will not get better until there is a significant investment in 
producing the highly qualified education faculty to train teachers in 
these fields. In the three years that I have been responsible for 
hiring faculty for our college, I have come to the conclusion that the 
shortages in specialized teachers for the nation's schools track 
directly to the shortage of qualified faculty in these fields. The 
pipeline for producing highly qualified classroom teachers in math, 
science, bilingual education and special education will remain grossly 
inadequate for as long as the pipeline for producing faculty in these 
fields remains unattended.
    UTSA has a nationally recognized program in bilingual, ESL and dual 
language education. We offer both the bachelors and masters'' degree in 
bilingual education and a doctorate in Culture, Language and Literacy. 
In spite of our strong reputation and in spite of the attraction of San 
Antonio, two positions in bilingual education have remained unfilled 
through two hiring cycles. Our experience in special education is 
better. In the last two years we have hired two new assistant 
professors in special education, but the candidate pools for these 
hires have been exceedingly small. Lamentably there is not a single 
special education faculty member at UTSA who has expertise in meeting 
the special education needs of limited English proficient students. The 
latter can be traced to the fact that there may be as few as four 
individuals in the ranks of the nation's doctoral faculty who have any 
expertise on the intersect of bilingual education and special 
education.
    We need bilingual education and special education faculty because 
all teachers need preparation in these fields. At UTSA we have 
redesigned our programs so that all teacher candidates are required to 
take at least two courses in ESL/bilingual education, one course in 
special education and inclusion. We have also doubled our math and 
science requirements for students in our K-8 teacher preparation 
program.
    All teachers need at least minimal preparation in bilingual 
education, ESL and dual language instruction and special education 
because we are a mobile nation. Teachers move form state to state and 
the LEP population is growing everywhere. No longer a regional 
phenomenon, the LEP population in this country has nearly doubled in 
the last decade. Increasing at eight times the rate of the total 
student enrollment, LEP students currently comprise 9.6 percent of the 
total public student population. The preparation of highly qualified 
teachers to meet the needs of these students is a national imperative.
    Throughout the nation, school districts are taking extraordinary 
measures to recruit teachers with the language and cultural skills to 
serve these students. School districts in Georgia, Ohio and North 
Carolina regularly recruit newly prepared teachers in the higher 
producing southwestern states where the demand for highly qualified 
bilingual teachers is just as great. Other school districts are 
recruiting teachers in foreign countries on the assumption that these 
teachers are prepared to teach in ESL, bilingual and dual language 
programs simply because they speak the children's language. But ESL, 
bilingual and dual language instruction is tough work requiring 
specialized knowledge and skill. Imported teachers especially will 
require training from qualified faculty.
    A similar national challenge exists in the field of special 
education. One third of special education faculty openings remain 
unfilled every year. After several years of unsuccessful searches many 
colleges shift the faculty line to another field of specialization and 
the shortage of special education teachers is exacerbated. If every 
special education faculty slot were filled, about 3000 more special 
education teachers could be trained annually and every teacher 
candidate could receive the high quality training they need to serve 
special needs students mainstreamed in their classrooms.
    Providing financial support to doctoral students in these fields is 
essential. The best teacher preparation faculty are those who have had 
practical experience in the nation's schools. Teachers, many burdened 
by undergraduate student loans, do not enjoy a level of income that 
allows them to leave their jobs for three years and assume the 
financial burden of doctoral studies. Dr. George Blanco of the 
University of Texas at Austin indicates that the number of bilingual 
education doctoral students has dropped to 1-3 per year since the 
elimination of the Title VII doctoral fellowship program. With the 
doctoral fellowship program, UT Austin was producing 10-12 doctorates 
per year.
    Our own doctoral program in Culture, Language and Literature has 
not attracted the number of master bilingual education teachers that we 
envisioned and that we need. We have our eye on those outstanding ESL, 
Bilingual and Dual Language teachers who ought to be in doctoral 
programs and joining the nation's faculty ranks. Most of them however, 
are among the first in their family to graduate high school and earn an 
undergraduate degree. They are still paying off student loans and have 
strong reasons for not giving up what to them is a well-paying teaching 
job to work three years on a doctorate.
    Fellowships will make the difference. Without them, we will make 
little progress in meeting the NCLB challenge of ensuring that our most 
vulnerable students have access to an appropriately trained highly 
qualified teacher.
    I urge this Committee to pass provisions that will address the 
national need for faculty in the specialized fields of special 
education and ESL, bilingual education and dual language programs to 
serve LEP students. I would advocate strongly for special efforts to 
support doctoral students who pursue study in special education for LEP 
students. A small investment now will lay a foundation that can build 
capacity in every state in the nation.
    Thank you for this opportunity to address this urgent issue.
                                 ______
                                 
    Vice Chairman Porter. Thank you, doctor. I appreciate your 
testimony.
    Dr. Allen, thanks for your help. You're doing a great job 
out there. Thank you.
    I have a few questions, first for Mr. Hall.
    You mentioned 1973. It brings back memories. So you're 
giving away our age--1973.
    Regarding the programs, how are we doing in getting the 
message out to potential students, and what can we do to do a 
better job to let folks know that this is available to them?
    Mr. Hall. Well, one of the things we need to do is to 
intervene at an earlier stage in the process than we are right 
now. Right now, we tend to identify and work with college 
students to interest them in the legal profession.
    We think that to be more successful in the future, that we 
need to develop programs at the high school and even the middle 
school level.
    At the University of Louisville, for example, at the 
Brandeis School of Law, we have a program with Central High 
School, an historically black high school in the inner city, 
where talented high school students who have an interest or a 
possible interest in the legal profession come to our campus, 
they attend moot court competition, they talk with lawyers, 
they go to the court in Jefferson County, and they get real 
life experience where they can aspire and come to learn that it 
is within their reach to become a member of the legal 
profession.
    So intervening at an earlier age is a part of the equation 
to solve the problem.
    Vice Chairman Porter. Is an actual part of the program, I 
don't want to use the word marketing, but promoting the 
program, is it actually in the steps? Is it proposed under the 
current rules, or just something we need to make a bigger part 
of the regulation?
    Because my biggest concern is there are a lot of qualified 
folks out there that I'm sure would love to take part in the 
program, just make sure we get the message out.
    Mr. Hall. Right. Part of what we need to do is get the 
message out.
    I believe part of the strategy is to have the Summer 
Institute strategically around the country in the West, the 
South, and the Northeast, to increase the visibility of the 
program, working with colleges and universities across the 
country; and again, working to get the message to high school 
and pre-high school students about the accessibility of 
entering into law school and the legal profession is a part of 
the equation.
    And so marketing, spreading the word, and being evangelical 
about attracting people into a profession that is an important 
part of our society is a part of the CLEO mission, yes.
    Vice Chairman Porter. So we don't need to help in that area 
as far as defining the mission?
    Mr. Hall. I think our mission is pretty well-defined. I 
think the recommendations we are offering today, will help 
fine-tune the authorization language to allow us to go forward. 
We would be very happy with that, yes.
    Vice Chairman Porter. All right. Thank you.
    Mr. Hall. Thank you.
    Vice Chairman Porter. Dr. Allen, what is contributing to 
this decline of teaching American history in institutions of 
higher education?
    Mr. Allen. I would, Mr. Chairman, point to two things.
    The first, of course, is that we live in an era in which 
the demands on us are simply extraordinary.
    There are so many differing topics of interest, and of 
course, as we try to accommodate all the possible ways in which 
to structure a curriculum and to appeal to the interests of 
individual students and communities, we tend to begin to 
fragment our offerings. We always have to remind ourselves 
periodically, what is it that needs to be the base, and we 
haven't regularly gone back to ask what the base is.
    Now, when I speak of base, I don't mean the basics. I 
really do mean base. We stand on something, we don't stand in 
midair. The something on which we stand are those principles 
that led to the establishment of this nation and such acts as 
the Morrow Act and subsequent acts of legislation that 
furthered access to higher education.
    It's important for us, as I say in the concluding words of 
my written testimony, to be certain that those who graduate 
from our institutions of higher education are fully prepared to 
assume their responsibility to govern this society on its own 
principles and terms. That makes it a different kind of concern 
than other subject matters in the curriculum.
    People will express their individual choice, they will 
follow their individual inclinations; but everyone should do 
that while being fully versed in the principles of freedom that 
built this society.
    A second thing, to be very brief, that has led to this 
difficulty has been simply that we changed our requirements in 
our colleges and universities. We stopped asking students to 
study American history. We stopped asking them to study basic 
courses in civilization.
    When I conducted in Virginia a survey of its general 
education requirements, I found there what is true elsewhere 
throughout the country, that it was rare that any institution 
asked students to either meet a requirement in American history 
or to meet that requirement with an American history course.
    So the watering down of the requirements has meant that we 
now no longer can reliably count on people knowing essential 
dates, facts, and stories of the American past.
    Vice Chairman Porter. Thank you. And doctor, is your wife 
also here today, who helped to write the book? Is she here?
    Mr. Allen. She is not here today. I flew out very quickly 
this morning and go back this afternoon, so she did not come, 
but I appreciate your asking.
    Vice Chairman Porter. Well, give her our best. I notice 
that the title is ``Habits of the Mind.'' Has she written any 
books about--do you have any bad habits or anything?
    [Laughter.]
    Mr. Allen. No, no. We're focused entirely on fostering 
access and excellence in higher education.
    Vice Chairman Porter. Very good. Thank you very much. That 
ends my questions for the moment.
    Mr. Hinojosa, would you have any questions?
    Mr. Hinojosa. Thank you, Mr. Chairman.
    My first question would be to Dr. Earl Lewis.
    You've indicated that the GAANN areas of national need 
focus on biology, chemistry, computer and information science, 
engineering, geological science, math, and physics.
    These are all very important, but these are all areas with 
minimal representation of minorities.
    How can this issue be addressed?
    Mr. Lewis. There are several programs already underway to 
begin to try to increase the numbers of students of color in 
science, math, engineering, and technology, and I think those 
programs have come under the aegis of the National Science 
Foundation.
    It may be useful to ask the Department of Education, during 
a periodic review of what areas it should consider under the 
areas of national need, to take another look not only at those 
areas of national need, but also to see if there is a way to 
actually coordinate efforts to expand opportunities for 
students of color.
    I think there is a second thing that can be done, which is 
to begin to actually expand and deepen a series of programs, 
particularly at the undergraduate level.
    Some of the research opportunity programs, which have been 
a way to attract under-represented students into these areas, 
have flourished in a number of parts of the country. The Big 
10, the CIC institutions, for example, have been very active 
participants there.
    There are ways to begin to really identify and expand. 
Those are two examples.
    Mr. Hinojosa. Thank you, Dr. Lewis.
    I want to say that I'm very interested in working with you 
in trying to find a solution to the under-representation by 
minorities in those areas, and invite you to take a look at a 
model that has been developed in South Texas, known as HESTEC, 
H-E-S-T-E-C, and that model, I am sure, would work also with 
our African-American minority students in trying to get them 
into these fields.
    The University of Texas Pan American is located in 
Edinburg, Texas, and this HESTEC is a program that has received 
national attention, and this year we have Secretary Rod Paige 
coming down to talk to the group sometime in October of this 
year, but it's certainly a model that can help us all, you 
know, all our minorities, address this issue.
    Dr. Cardenas, is the State of Texas providing sufficient 
resources for the programs you have described, or do you also 
depend on Federal and private resources to support your 
teaching and student support efforts?
    And the second question, if you would continue in your 
answer, would you also talk to us about the supply and demand 
as it refers to professors to college students?
    Ms. Cardenas. Well, the State of Texas is experiencing two 
things: one, the same kind of budget crunch that other states 
are experiencing; and two, a very strong surge in demand for 
higher education.
    The state legislature just authorized the deregulation of 
tuition. Texas had enjoyed a very low tuition base for many 
years. It is very clear that the costs for that, for tuition, 
the costs for education are now going to be passed to the 
student.
    So I anticipate that the state, because of policy decisions 
and because of the budget crunch, will probably assume a 
declining share of the proportion of higher education costs, 
both at the undergraduate and graduate level.
    Now, in terms of my specific concerns that have to do with 
teachers, we do have programs like Teach for Texas, which are 
loan reimbursement programs designed to assist teachers, or to 
attract students into the teaching field, but in terms of state 
support for graduate education, there is none, other than the 
part of our own budget that is returned to us as graduate 
incremental tuition, and we were able to provide some support 
for graduate students with that money.
    Mr. Hinojosa. Dr. Cardenas, are you familiar with H.R. 
2238, which I introduced in this session, for higher education? 
It's a bill where we would try to help Hispanic-serving 
institutions reach more minority students get into master's and 
Ph.D. programs, and if so, how would it help your college?
    Ms. Cardenas. Well, clearly, Title V of the Higher 
Education Act has had a very direct role in these retention 
improvements that I cited in my testimony.
    Indeed, while we've done many things to realize that kind 
of improvement and retention, it was our Title V grant, the 
Learning Communities Grant, which was at the core of our 
retention program.
    Now, you can't get minority students or any other students 
into master's and doctoral programs unless you retain them and 
they get their bachelor's degree. So that is the first piece. I 
want to acknowledge the importance of that support.
    Now, the second piece of it is providing support for 
master's and doctoral-level education, we have over 50 percent 
of our students come from homes that are low-income homes. 
Forty-six percent of our students last year were Latino, 7 
percent were African-American, and the remainder were non-
Hispanic white.
    So our students are poor students, and our students who go 
into teaching are particularly poor students. I call them 
heroes, because there's no other explanation for their success. 
Many of them work full-time.
    So in order for us to increase those master's and doctoral 
ranks, we would be very heavily reliant on external funding 
from the Federal Government or other sources, so it would make 
a tremendous impact.
    Mr. Hinojosa. Thank you, Dr. Cardenas.
    Mr. Chair.
    Vice Chairman Porter. Dr. Gingrey.
    Dr. Gingrey. Thank you, Mr. Chairman.
    I want to address my first remarks to Mr. Hall.
    In reading your testimony, Mr. Hall, it seems to me that 
you are suggesting that you want Members of Congress to 
actually do something to increase the number of lawyers in this 
country?
    [Laughter.]
    Mr. Hall. I wouldn't say increase the number, but increase 
the diversity thereof.
    Dr. Gingrey. Well, I certainly can support that.
    Mr. Hall. Thank you.
    Dr. Gingrey. It's those total numbers that really bother 
me.
    But actually, and I'll say this to Dr. Allen, my daughter 
is a law student at Michigan State University as we speak, so I 
say that somewhat tongue-in-cheek about the total number of 
lawyers, but I do get concerned sometimes, as a practicing 
physician who is desperate for a little tort reform.
    [Laughter.]
    Dr. Gingrey. I wanted to ask you, Mr. Hall, though, 
seriously, to expand on the success of the CLEO and Thurgood 
Marshall programs.
    Can you tell us on average how many students participate a 
year, and of those, how many actually complete law school and 
go on to practice law?
    Mr. Hall. Well, the Thurgood Marshall Program is in its--I 
believe its third year. We are beginning to attract those 
numbers, so we understand there's going to be accountability 
with the Federal funding. We see even that you're going to 
expect annual reports on the success and the tracking of our 
students, and our staff has put mechanisms in place to do that.
    We hope to report to you, as we go forth, specific numbers 
that will show that the public is getting a great return on its 
investment in terms of creating diversity within the profession 
and increasing the success of students who go into law school.
    Dr. Gingrey. And to carry that a step further, I hope this 
question hasn't already been asked, but you mention in the 
testimony that part of the goal also is the success on the bar 
exam.
    Mr. Hall. Yes, sir.
    Dr. Gingrey. And I'm sure you're measuring that. Can you 
give us an idea of the percentages there?
    Mr. Hall. I don't have specific numbers with me, but I do 
know that our graduates' success are comparable to the general 
success numbers in the general population, and we can give you 
those numbers at a later date if you so desire, but that is 
something we're very, very sensitive to as a part of our 
mission.
    We don't want to attract people into law school, students 
into law school, help them get through law school, and then 
have them meet this impenetrable bar in terms of entering the 
profession, so we do have programs that are designed to help in 
bar preparation, as well.
    Dr. Gingrey. Thank you.
    Mr. Lewis, you had mentioned that, in your testimony, we 
should remove the need component of the programs, and that the 
Education Department is the only agency that requires need 
analysis.
    Isn't the basis of the Higher Education Act to serve, 
indeed to serve needy students, and isn't it a good combination 
in this case to provide financial assistance to the best and 
brightest who otherwise couldn't afford to go?
    Mr. Lewis. I couldn't agree more.
    What we're really trying to get at is that the way the bill 
operated before 1998, the individual institutions then would 
have the responsibility for trying to determine the need and 
whether or not those particular students who actually got the 
award met those need challenges.
    Since 1998, the individual students have to go through a 
series of bureaucratic mazes to be able to get that information 
forward.
    So what we would like to do is to have it go back to the 
1998, where the need analysis is there, but it's actually done 
at the institution who is then working through all the 
processes.
    Dr. Gingrey. OK. Thank you.
    That's all, Mr. Chairman. Thank you.
    Vice Chairman Porter. Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman, and thank you to all 
of you for being here.
    I think one thing that's always helpful in this is to try 
and have some kind of a model or projection of what our needs 
are going to be 5 years, 10 years, 25 years out, because that 
seems to be the only way, even though we work in short term 
here, to really think about how much of a wakeup call you're 
presenting, that we don't have the students in the pipeline to 
do the work that's got to be done in the next number of years.
    And that's really critical, and I think that it becomes, it 
should become a priority, but sometimes we don't quite picture 
it in that way. We don't look down the road enough, so I 
appreciate your doing that.
    One of the questions I would have to you, Dr. Cardenas, is, 
are there programs out there that we could build on and perhaps 
find some of these students?
    I've been a champion of the National Board for Professional 
Teaching Standards, because I think that's one program that 
allows teachers who want to stay in the classroom, who should 
be earning more money, to demonstrate their fluency, their 
expertise, but it's also a place to look for those students who 
might be able to go on.
    Maybe we need to be thinking about some kind of a program 
attached to that that would identify those students, I mean 
those--well, they're students, but they're also teachers right 
now.
    The problem we all face is bringing these people out of the 
classroom, not just the fact that they obviously can't support 
themselves.
    In some ways, I'm reminded also of our need for nurses, 
because I know when I've spoken to nurses who are, you know, 
working every day, the toughest thing in the world for them is 
to go back onto a faculty or to be in a program so that they 
can be on a faculty, and we desperately need them.
    Are there programs that we should be looking to?
    Ms. Cardenas. Specific programs that seek to recruit for 
the doctorate on a national or state level do not seem to 
exist. Clearly, I think there are places like Arizona State 
University and our own program.
    I've been able to count about 74 doctoral programs that 
offer either a Doctorate in C&I with a specialization--that's 
curriculum and instruction--with a specialization in bilingual 
education, or Doctorates in Special Education. As I said, we 
don't have the mix of the two.
    But I think universities are very well-prepared to go out 
and recruit those excellent teachers that we already work with. 
They're the supervising teachers for our student teachers. 
They're the teachers that hosts us for our field-based classes. 
We know who they are.
    What we don't have is the money to be able to entice them 
to come into a doctoral program for 3 years, but we know where 
they are.
    That does not mean that I don't think your idea of the 
National Board link is not a super one to pursue. Particularly 
in areas like math and science, that would be an excellent 
choice.
    Mrs. Davis. Do you see communities where the businesses are 
stepping up and sponsoring, mentoring teachers? Have you seen 
that be successful?
    Ms. Cardenas. Businesses are stepping up, particularly in 
terms of encouraging the preparation of math and science 
teachers.
    In San Antonio, we have a program called ``You Teach,'' 
which is being fully supported by Mr. Tom Frost, a local 
banker. It seeks to increase the number of mathematics 
teachers. We're in our second year with this program. The 
enrollment is growing. We're very excited. This is secondary 
mathematics teachers.
    But again, these people, are a very initial joint in the 
pipeline. We've got to look at the pipeline at all of the 
points at which we can make a difference.
    I just want to say that in terms of dealing with issues of 
limited English proficient children, we can't wait for another 
reauthorization of the Higher Education Act. The numbers of 
these students, and the need to prepare people who can prepare 
others to teach them, is just very, very high, and in 6 years 
we're going to have a significant catastrophe on our hands if 
we don't do something about it now.
    Mrs. Davis. Thank you. Thank you, Mr. Chairman.
    Vice Chairman Porter. Mr. Hinojosa, do you have some 
additional questions?
    Mr. Hinojosa. thank you, Mr. Chairman.
    I'd like to ask Daniel Hall, would you please elaborate on 
your proposal to transfer CLEO from Title VII to Title IV of 
the Higher Education Act? How would you go about that?
    Mr. Hall. Well, the reason that we are proposing that this 
program be transferred from Title VII to Title IV is because it 
would put it in the section of the statute with programs that 
are more akin to the Thurgood Marshall Legal Educational 
Opportunity Program, like the Ronald McNair.
    This is more than just a simple program providing 
fellowships. It has the societal purpose of trying to work with 
young people to diversify our legal profession, to assist in 
success rates in law school and passing the bar, so we think it 
just is a more natural fit in the section, rather than Section 
7.
    Mr. Hinojosa. Thank you.
    Dr. Cardenas, it appears that you're making a good effort 
to develop professionals in your department at your university, 
and you mentioned that perhaps states such as Georgia, North 
Carolina, and Ohio could use your model approach. Would you 
elaborate on how such programs would work?
    And the second question: seeing how Toyota has come into 
San Antonio to build a huge assembly plant and other companies 
that use a lot of engineers, like Boeing, Lockheed Martin, and 
others interested in trying to help us produce a lot more 
technicians and engineers, but naturally they know that, in 
order to meet that demand, they're going to need the supply of 
teachers, have you talked to them about investing in the areas 
that we need?
    Ms. Cardenas. Well, Toyota just got there, and they're 
certainly on our radar screen, but they're a little overwhelmed 
right now by people asking them to support things, so we're 
creating a strategy to reach that group.
    The fact of the matter is that many businesses are 
supportive of the idea of training more teachers, particularly 
in the science and math arena, and we expect that this program 
that we've started with San Antonio's leading businessmen and 
leading citizens will enable us to reach out to other 
corporations.
    On the issue of whether what we have to offer would be 
applicable in a Georgia or a North Carolina, I've talked with 
deans from some of those states, and many of them are just 
beginning to realize that they have a problem.
    Clearly, there are models for preparing these teachers, 
very strong models, ours, a number of institutions in 
California, a number of institutions in New York City, we have 
the good models. They wouldn't have to start from scratch.
    But we're all going to be fighting for the same faculty. 
These institutions in these areas of the country that have 
never had a large immigrant population simply don't have the 
capacity, and so we've got to produce the faculty so that then 
they can hire them and build their capacity.
    So the answer on the one hand is yes, we can share the 
models--I would be willing to, and would be happy to. They 
would be applicable. But we still don't have enough people to 
teach those classes, and unless we can produce more people with 
doctorates in these areas, we're not going to have enough.
    One-third of all special education positions in this 
country go unfilled every year for want of enough people 
prepared to become faculty in special education, at the same 
time that the special education legislation is making more 
demands on school districts.
    Mr. Hinojosa. You've just given me the justification to be 
able to convince another 118 Congressmen to vote for H.R. 2238, 
because that would be the solution.
    Thank you very much, Dr. Cardenas.
    Ms. Cardenas. We aim to please, Congressman.
    [Laughter.]
    Vice Chairman Porter. Doctor, you have all pleased us 
today. We appreciate everyone's testimony. Thank you for your 
time, for being with us, sharing your thoughts and ideas, and 
of course, the panel for its questions.
    If there's no further business, the Committee will stand 
adjourned. Thank you.
    [Whereupon, at 3:10 p.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
   Statement of Delia Pompa, Executive Director and Patricia Loera, 
   Legislative Director, National Association for Bilingual Education

    Mr. Chairman and Members of the Subcommittee:
    The National Association for Bilingual Education (NABE), an 
association representing the 5 million limited English proficient (LEP) 
students in the United States and the educational personnel that serve 
them, is pleased to have the opportunity to present its views on Title 
VII of the Higher Education Act. NABE's recommendations focus on 
improving the ability of schools of education to adequately prepare all 
teachers, including bilingual and ESL teachers, and key support 
personnel for limited English proficient students. Our primary concern 
is the lack of faculty (teacher trainers) at the more than 1,200 
schools of education who are qualified to prepare teachers to meet the 
unique linguistic and academic needs of LEP students.
Demographic Trends of Children with Limited English Proficiency
    There are more than 5 million children with limited English 
proficiency attending American schools today, and their numbers are 
growing exponentially. This number represents almost 10 percent of 
total public school student enrollment and has increased by eight times 
the rate of the total student enrollment. This number will only grow 
larger given the growth in the number of children that speak a language 
other than English at home (almost 10 million making up nearly 20 
percent of children in K-12 with more than two-thirds of those speaking 
Spanish at home).
    Although they are still primarily concentrated in six states--
California, Texas, New York, Florida, Illinois and Arizona--students 
with limited English proficiency are now present in every state and in 
almost half of our nation's school districts. Many states reported 
significant increases in the number of LEP students enrolled. Fifteen 
states reported increases of 200 to 600 percent in LEP enrollments from 
school years 1992-2002. Georgia claimed the most marked increase in LEP 
enrollment (671 percent), with North Carolina (652 percent), Nebraska 
(571 percent), South Carolina (378 percent), Tennessee (371 percent), 
Alabama (368 percent), Kansas (359 percent), and Nevada (274 percent). 
Twenty states reported increases between 50 and 200 percent. Please see 
the attached chart.
    These demographic trends underscore the need for federal efforts to 
prepare highly qualified teachers to help LEP students learn English 
and keep up with their academic subjects. The No Child Left Behind Act 
(NCLB) requires that there be a highly qualified teacher in every 
classroom by the 2005-06 school year, including bilingual/ESL teachers. 
NCLB also created new accountability and reporting requirements for LEP 
students that require states and schools to demonstrate that LEP 
students are making progress in learning English and keeping up with 
academic subjects like reading, math and science.
Preparing Teachers for Limited English Proficient Students
    The increased numbers of LEP students and the new NCLB 
accountability requirements support the need for the federal government 
to invest in helping schools of education produce highly qualified 
teachers for LEP students. Federal support to ensure there are 
sufficient teacher trainers (faculty at schools of education) is even 
more critical given the shortage of bilingual/ESL teachers. Data 
collected by the American Association for Employment in Education 
reveal a ``considerable shortage'' in bilingual education teachers 
(4.48 on a 5-point scale) and ``some shortage'' in ESL (3.89 on a 5-
point scale). A coalition of the nation's urban school districts, the 
Council of the Great City Schools represents 14 percent of the nation's 
school children and over 30 percent of the nation's LEP population. 
Sixty-two percent of surveyed districts report a shortage of LEP 
teachers. Sixty-six percent of surveyed districts anticipate an LEP 
teacher shortage within the next five years, amounting to over 6,000 
teachers.
    Beyond the shortage of bilingual/ESL teachers there is also the 
need to prepare all teachers to address the unique linguistic and 
academic needs of LEP students. After LEP students transition from 
specialized classrooms, they are placed in all English instruction 
classes with regular teachers. These ``mainstream'' teachers must be 
trained on the process of second language acquisition because it can 
impact the academic achievement of LEP students. All teachers need to 
have:
    <bullet> L The ability to function in cross-cultural settings and 
with students from diverse backgrounds;
    <bullet> LKnowledge about second language acquisition and how 
English language learners develop language skills in both first and 
second languages;
    <bullet> LStrategies for supporting diverse groups of students in 
regular classrooms; and
    <bullet> LStrategies for developing literacy skills among diverse 
groups of learners.
    Sadly, of the over 1.3 million teachers who are teaching LEP 
students in some capacity, only 154,000 of those teachers (12.5%) have 
had eight or more hours of preparation in the last three years on how 
to teach these students (NCES, 2002). And, NCES 2001 data found that 
only 27% of teachers of LEP students felt ``very well prepared'' to 
teach students with limited English proficiency, while the majority 
(60%) felt only ``somewhat'' or ``moderately'' well prepared and 12% 
reported felling ``not prepared at all.
The Challenges for Schools of Education to Prepare Teachers
    To ensure that schools of education are adequately preparing 
teachers for limited English proficient children as required under 
NCLB, a direct effort must be made to improve the quality of faculty 
and research at our nation's schools of education. To do so would 
require support to increase the number of teacher trainers (faculty) 
and enhance program administration, research and curriculum development 
supporting LEP students.
    Unfortunately, schools of education lack trained faculty to prepare 
regular and bilingual/ESL teachers. Most schools of education do not 
offer post baccalaureate or higher degrees in bilingual/bicultural or 
ESL/foreign language. Out of the 1,200 schools of education, only 79 
schools of education offer a Masters degree, advanced certificate or 
Ph.D. in bilingual/ESL.
Recommendations for Title VII
    NABE proposes to include language in Title VII of the Higher 
Education Act to create Graduate Fellowships in Teaching Limited 
English Proficient Students. This graduate fellowship would help build 
the cadre of faculty (teacher trainers) and other support personnel at 
the schools of education by supporting masters, doctoral, and post-
doctoral study related to instruction of children and youth of limited-
English proficiency in such areas as teacher training, program 
administration, research and evaluation, and curriculum development, 
and for the support of dissertation research related to these areas of 
study. The proposed language requires fellows to subsequently work in 
the field of bilingual education/ESL for five years or repay the 
fellowship amount.
    We have seen and benefited from the success of these graduate 
fellowships. For many years, graduate fellowships in bilingual 
education were authorized under Title VII, The Bilingual Education Act 
in the Elementary and Secondary Education Act (ESEA). These fellowships 
were evaluated by a congressionally mandated study of the impact of 
Title VII Bilingual Education Fellowship Program submitted in December 
1991. The study found that with the fellowship, of the 1,721 fellows 
participated between 1979 and 1987, 1432 were pursuing a doctoral 
degree; 104 were post-master's students; and 185 were enrolled at the 
master degree level. The vast majority of fellows who worked in the 
field of bilingual education/ESL to fulfill their contractual 
obligations to the program did so in the same region in which they had 
pursued their graduate degree. Of the fellows studied, 93 percent were 
in compliance with their contractual obligation to the fellowship 
program.
    While we have seen this fellowship work in the past, it is 
important to look at the present day needs of candidates who would be 
interested in doctoral study. These candidates would likely be master 
teachers at the K-12 level who are committed to improving the education 
of LEP and all students. These master teachers have the talent, skills 
and commitment for the rigorous of graduate and doctoral study but 
often lack the financial support to pay for the degree. The fellowship 
would provide the support for tuition, books, and a stipend under 
certain conditions. In addition, the schools of education would have an 
incentive to develop specializations in second language acquisition at 
their schools.
    NABE would also support creating a fellowship for special 
education. To the extent the Committee considers creating a fellowship 
for special education, we urge the committee to include a priority for 
fellows to support doctoral students who pursue study in special 
education for LEP students. NABE believes that around 600,000 LEP 
students <SUP>1</SUP> should receive services under the Individuals 
with Disabilities Education Act. Therefore, the need for faculty 
trained on both special education and second language acquisition is 
critical given the small number of faculty that are experts in the 
field of bilingual special education.
---------------------------------------------------------------------------
    \1\ This number was estimated using the U.S. Department of 
Education's figure of 4.5 million LEP students for SY 2000-01 and 
multiplying by 12%, the percentage of the school-aged population that 
Congress estimated would need special education services. This number 
would be 540,000 students. However, given that approximately 70% of LEP 
students live in poverty, NABE estimates that the number of LEP 
students with disabilities is actually closer to 600,000.
---------------------------------------------------------------------------
Conclusion
    Thank you for the opportunity to submit testimony on this important 
issue. We look forward to working on a bipartisan basis to improve out 
Nation's schools of education and the future teachers for our diverse 
K-12 student population. Investing in teacher programs aimed at 
improving the educational performance of LEP students is key to our 
Nation's future.

                                  <all>
</pre></body></html>
